<html>
<title> - THE FUTURE OF ELECTRICITY DELIVERY: MODERNIZING AND SECURING OUR NATION'S ELECTRICITY GRID</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  THE FUTURE OF ELECTRICITY DELIVERY:
                      MODERNIZING AND SECURING OUR
                       NATION'S ELECTRICITY GRID

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             July 17, 2019

                               __________

                           Serial No. 116-40

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
          
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-037PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c5b5aa85a6b0b6b1ada0a9b5eba6aaa8eb">[email&#160;protected]</a>                 
       
       
    
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                         Subcommittee on Energy

                HON. CONOR LAMB, Pennsylvania, Chairman
DANIEL LIPINKSI, Illinois            RANDY WEBER, Texas, Ranking Member
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              RALPH NORMAN, South Carolina
KENDRA HORN, Oklahoma                MICHAEL CLOUD, Texas
JERRY McNERNEY, California           VACANCY
BILL FOSTER, Illinois
SEAN CASTEN, Illinois
                         
                         C  O  N  T  E  N  T  S

                             July 17, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Conor Lamb, Chairman, Subcommittee on 
  Energy, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     6
    Written Statement............................................     7

Statement by Representative Randy Weber, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................     9

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    10

                               Witnesses:

The Honorable Karen Evans, Assistant Secretary, Office of 
  Cybersecurity, Energy Security, and Emergency Response, U.S. 
  Department of Energy
    Oral Statement...............................................    12
    Written Statement............................................    14

Mr. Juan J. Torres, Associate Laboratory Director, Energy Systems 
  Integration, National Renewable Energy Laboratory and Co-Chair, 
  Grid Modernization Lab Consortium
    Oral Statement...............................................    28
    Written Statement............................................    30

Ms. Kelly Speakes-Backman, CEO, Energy Storage Association
    Oral Statement...............................................    40
    Written Statement............................................    42

Ms. Katherine Hamilton, Chair, 38 North Solutions and Executive 
  Director, Advanced Energy Management Alliance
    Oral Statement...............................................    50
    Written Statement............................................    52

Discussion.......................................................    61

             Appendix I: Answers to Post-Hearing Questions

The Honorable Karen Evans, Assistant Secretary, Office of 
  Cybersecurity, Energy Security, and Emergency Response, U.S. 
  Department of Energy...........................................    78

Mr. Juan J. Torres, Associate Laboratory Director, Energy Systems 
  Integration, National Renewable Energy Laboratory and Co-Chair, 
  Grid Modernization Lab Consortium..............................    80

Ms. Kelly Speakes-Backman, CEO, Energy Storage Association.......    82

Ms. Katherine Hamilton, Chair, 38 North Solutions and Executive 
  Director, Advanced Energy Management Alliance..................    84

            Appendix II: Additional Material for the Record

Letter submitted by Representative Conor Lamb, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    88

 
                  THE FUTURE OF ELECTRICITY DELIVERY:
                      MODERNIZING AND SECURING OUR
                       NATION'S ELECTRICITY GRID

                              ----------                              


                        WEDNESDAY, JULY 17, 2019

                  House of Representatives,
                            Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 2:03 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Conor Lamb 
[Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Lamb. All right, this hearing will come to order. 
Without objection, the Chair is authorized to declare recess at 
any time. Good afternoon, welcome to today's hearing, ``The 
Future of Electricity Delivery: Modernizing and Securing Our 
Nation's Electricity Grid.'' I want to thank all of our 
witnesses for joining us here today. This is such an important 
topic.
    I'm a young guy, as you can tell, but I have read some 
history about what it was like when we first started building 
the electric grid, over a century ago now. I don't think we 
could have imagined the technologies that we would use to power 
our homes, and businesses, and hospitals, and everything today. 
And I think the challenge is different. You know, back then the 
real challenge was just extending power itself throughout every 
corner of our society, and there was a challenge, which was 
that those providing power knew they could make money in the 
cities, in well-populated areas, in places with a lot of 
business and commercial opportunities, but it was not as 
profitable to take electric power out into the countryside, 
into the hill country of Texas, for example. And so the 
government made a basic deal, which was that they would 
provide, essentially, a monopoly over providing power in a lot 
of these areas. Firms would make quite a bit of money, 
utilities would, and in exchange they would carry their product 
everywhere that it needed to be. And I think in the 21st 
century, we have a similar dilemma on our hands, but there's a 
similar deal to be made, which is today the challenge is not 
just to provide power itself everywhere, but to provide power 
in a way that is clean, and efficient, and allows us to stay 
economically competitive, even as we become a society much less 
dependent on carbon. And although electricity demand has been 
flat, we should see electricity demand increase as we electrify 
more segments of our society in order to accomplish those 
goals.
    But to get there it's clear that we have to change the 
energy sector. We know that as we do that, for example, there 
are going to be much more serious threats to our electric grid, 
from cyberattacks and otherwise. We know that the economics of 
this whole thing are changing, as natural gas resources have 
come online. That's good for constituents like mine, who are 
saving money, but as all this stuff changes, we're going to 
have to invest to really upgrade the system that is meant to 
integrate all these new sources of energy, and to strike a 
balance between them in real time, which has become one of the 
big challenges with battery storage especially. That's a 
computing challenge, is a technological challenge. It's a 
challenge when it comes to making the basic infrastructure 
investment, and that's what we're here to talk about today.
    I was definitely alarmed to hear, as I'm sure many of you 
were, about the first serious cyberattack on our Nation's 
electric grid back in March, or at least it was reported in 
March. As far as we know, no customers lost power in that 
attack, but it obviously is a warning sign of the incredibly 
serious damage that could happen if we don't take action on 
this issue. And by the time one happens when somebody does lose 
power, it'll be much too late, and so the choice facing all of 
us today is whether we can get the legislative machinery to 
work in such a way that we can really make a serious 
investment, and try to protect folks from the cyberattacks that 
we all know are going to come. We know that Russia, and China, 
and other adversaries are actively probing our defenses, and 
they would love to have in their back pocket the ability to 
shut down parts of our grid when it's convenient for them, and 
the decision facing us is whether we will allow that to happen. 
And I think I speak for every Member of this Committee when I 
say that we will not.
    That's why I'm looking forward to talking about these 
subjects today. We have the draft Grid Modernization Research 
and Development Act of 2019, which will allow us to set forth a 
wide array of research opportunities on topics like grid 
modernization, resilience, emergency response, modeling, which 
we know is going to be so important to be able to manage the 
new type of grid that we have, and better integration of 
buildings, vehicles, and renewable sources. Several Members of 
this Committee, including Mr. Casten and Mr. Foster, have 
already introduced legislation on these subjects, and we are 
happy to incorporate elements of those into these drafts that 
we'll continue working on making sure we do that.
    We're also looking at the Grid Cybersecurity Research and 
Development Act of 2019, which updates a bill previously 
introduced by Mr. Bera. This would authorize a cross-agency 
research and development (R&D) program to do exactly what I've 
discussed, which is harden and mitigate the electric grid from 
cyberattacks. It would be carried out in partnership with 
Department of Homeland Security (DHS), the National Institute 
for Standards and Technology, and the National Science 
Foundation would involve technical assistance, education, and 
workforce.
    One of the aspects of cybersecurity that I think is often 
underappreciated is the fact that it is also a workforce issue. 
We don't have enough people trained and working in 
cybersecurity today as we need, and there will be tens of 
thousands, or even hundreds of thousands, more openings in the 
next few years, many of which in my home area of Pittsburgh, 
because of the great work done at Carnegie Mellon, but also the 
University of Pittsburgh's Cyber Law Institute, among others, 
really training people up for this. And so that's what these 
kind of programs are going to authorize. We're excited to talk 
about them.
    [The prepared statement of Chairman Lamb follows:]

    Good afternoon and thank you to all our witnesses joining 
to discuss a critical topic to our nation: the electric grid. 
When we were first started building the grid over a century 
ago, we couldn't have imagined the technologies we'd use to 
power our homes and businesses - much less the technologies 
that would depend upon electricity. And despite the incredible 
advancements our scientists, researchers, companies and 
universities have pioneered since, many of the basic principles 
of our grid's design and operation remain unchanged.
    One thing I've heard both sides of the aisle emphasize is 
the need for increased infrastructure investment. Any 
infrastructure plan must include the grid, and we need new 
technology solutions to upgrade the backbone of the energy 
system for the 21st century.
    It's clear the energy sector is changing as our grid faces 
challenges like cyber threats and climate change. We also know 
that the generation resources used to power our grid are 
changing. The costs of electricity have continued to drop as we 
found new ways to develop natural gas resources and made 
breakthrough advancements in renewable resources like wind and 
solar. These generation changes have saved constituents money 
and are lowering carbon emissions - critical as we continue to 
try and mitigate the effects of climate change.
    Our economy and civilization increasingly rely on 
electricity. It only makes sense to invest in the delivery 
system for what powers our hospitals and schools, our factories 
and homes. And it makes sense to invest in the research that 
allows for advancements and adoption of new technology and 
protects this critical infrastructure from adversaries or 
natural disasters.
    I was alarmed to hear, as I am sure many were, of the first 
incident of a cyber attack on our nation's electricity grid, 
reported to the Department of Energy by an anonymous Western 
utility on March 5th, 2019. While no customers lost power, this 
attack portends the potential damage to come and the importance 
of bolstering our grid's security.
    This is why I'm looking forward to discussing two important 
legislative drafts at this hearing today that will guide the 
Department's research and development activities on grid 
modernization and cybersecurity. The draft Grid Modernization 
Research and Development Act of 2019 would set forth a 
comprehensive research agenda on several important topics in 
grid modernization, including grid resilience, emergency 
response, modeling and visualization, and the better 
integration of buildings, vehicles, and renewable energy 
sources onto the electric grid.
    I understand that several members of this committee, led by 
Mr. Casten and Mr. Foster, have introduced legislation on 
energy storage, elements of which are also incorporated into 
these drafts.
    The second draft bill we are here to discuss, the draft 
Grid Cybersecurity Research and Development Act of 2019, 
updates a bill that was previously introduced by my colleague 
on this Committee, Mr. Bera. This bill authorizes a cross-
agency research and development program to harden and mitigate 
the electric grid from cyber attacks. This research program 
would be carried out in partnership with the Department of 
Homeland Security, the National Institute for Standards and 
Technology, and the National Science Foundation and includes 
technical assistance, education and workforce programs, and 
interagency coordination as tools to achieve these important 
security goals. I hope we're able to work together in a 
bipartisan way to develop and advance these bills to ensure our 
grid remains reliable, resilient, and secure.

    Chairman Lamb. And, with that, I will now recognize the 
Ranking Member, Mr. Weber, for an opening statement.
    Mr. Weber. Thank you, Chairman Lamb, for hosting this 
hearing. I was asking what the population of Pittsburgh is. The 
metro area is about 1.5 million. Is that about right? So that's 
a lot of electricity. Well, we appreciate you hosting this 
hearing. This afternoon we will hear from expert witnesses on 
the existing strengths and weaknesses of our Nation's electric 
grid, and the impact that potential attacks and incidents could 
have on our grid reliability and national security. Our 
witnesses today will also discuss advances in the research and 
development of new grid tools and technologies, and hopefully 
provide insight, I know you will, on how the Federal Government 
can work alongside of American industries to strengthen our 
energy sector.
    The reliability of America's power grid is one of our 
greatest economic strengths. I like to say that the things that 
make America great are the things that America makes. How do we 
do that? We have a strong, reliable energy supply, that's how 
we do it. In my home State of Texas, reliable and affordable 
power serves a population that is increasing by more than 1,000 
a day. Chairman Lamb, that's what I was asking you. We 
literally get 30,000 people a month into Texas. Now multiply 
times 12, and you figure out real quick what that does in a 
year. One thousand people per day, and it supports the energy-
intensive industries that drive the United States consumption 
of energy. Texas is by far the Nation's largest producer and 
consumer of electricity, and keeping its power grid reliable 
and secure is absolutely key to maintaining U.S. economic 
growth. But even in Texas, it is common knowledge that our 
electric grid faces significant and diverse threats to the 
reliability and resiliency of power delivery.
    Put simply, we cannot predict when a cyberattack would 
threaten our power supply, that you referenced, Mr. Chairman, 
and we do not know when the next natural disaster might occur. 
In 2017, we were reminded of this fact by the impact of 
Hurricane Harvey, a devastating Category 4 hurricane that hit 
the Texas Gulf Coast and caused significant generator and 
transmission line outages for many on the Texas Gulf Coast and 
the Texas Interconnection. However, due to proper planning and 
management by what we call ERCOT, the Electric Reliability 
Council of Texas, the Texas grid was able to recover quickly 
from this devastating storm.
    Since it's not a question of if, but a question of when 
that same power grid will face significant physical and cyber 
threats, the modernization of the national electricity system 
must be our priority. According to the Department of Energy, 
DOE, the U.S. electric grid must be updated within the next 
decade to address challenges, including aging U.S. energy 
infrastructure, changes in demand for energy, emerging threats, 
and fundamental shifts in the U.S. energy supply portfolio as 
energy sources, rightfully so, like renewables and nuclear 
increase. Again, we can see these changes taking place in my 
very own home State, where today nuclear generation is our most 
reliable source of energy, in fact running at more than 93 
percent of the time over the last 3 years. And where we also 
lead the Nation in wind energy, and we're number five in solar 
energy, by the way.
    As next generation energy technologies continue to come 
online, and as cybersecurity capabilities continue to grow and 
evolve, we must take our action to counter our grid 
vulnerabilities, and provide necessary updates to this very 
critical and necessary infrastructure. Thankfully, DOE funds 
broad research and development programs to support grid 
modernization and security technologies through departmentwide 
collaborations like the Grid Modernization Initiative, or GMI, 
and the Grid Modernization Lab Consortium, GMLC. DOE also funds 
robust research in novel grid technologies and computational 
modeling efforts through its Office of Electricity, OE, and 
cybersecurity technology for energy delivery systems through 
its Office of Cybersecurity, Energy Security, and Emergency 
Response, CESER. We are grateful to have two witnesses 
representing these important efforts here this afternoon, the 
Honorable Karen Evans, Assistant Secretary of CESER, and Mr. 
Juan Torres, an Associate Laboratory Director at the National 
Renewable Energy Laboratory, and co-Chair of Grid Modernization 
Lab Consortium. Welcome to both of you, welcome to all of you.
    Modernizing our grid will require these important programs, 
along with cooperation from many Federal agencies, States, and 
industry. I trust our witnesses can share their expertise, and 
provide valuable insight on how Congress can best support these 
very collaborative efforts. I want to thank the Chairman again 
for holding this hearing. I look forward to very productive 
and, dare I say, electrifying discussion. And, Mr. Chairman, I 
yield back.
    [The prepared statement of Mr. Weber follows:]

    Thank you, Chairman Lamb, for hosting this hearing. This 
afternoon, we will hear from expert witnesses on the existing 
strengths and weaknesses of our nation's electric grid, and the 
impact that potential attacks and incidents could have on our 
grid reliability and national security.
    Our witnesses today will also discuss advances in the 
research and development of new grid tools and technologies and 
provide insight into how the federal government can work 
alongside American industry to strengthen our energy sector.
    The reliability of America's power grid is one of our 
greatest economic strengths. In my home state of Texas, 
reliable and affordable power serves a population that is 
increasing by more than 1,000 people per day and supports the 
energy intensive industries that drive U.S. consumption of 
energy. Texas is by far the nation's largest producer and 
consumer of electricity and keeping its power grid reliable and 
secure is key to maintaining U.S. economic growth.
    But even in Texas, it is common knowledge that our electric 
grid faces significant and diverse threats to the reliability 
and resilience of power delivery. Put simply, we cannot predict 
when a cyberattack would threaten our power supply and we don't 
know when the next natural disaster will occur.
    In 2017, we were reminded of this fact by the impact of 
Hurricane Harvey, a devastating Category 4 hurricane that hit 
the Gulf Coast and caused significant generator and 
transmission line outages for many on the Texas 
Interconnection.
    Due to proper planning and management by the Electric 
Reliability Council of Texas (ERCOT), the Texas grid was able 
to quickly recover from this devastating storm. But since it is 
not a question of ``if'' but a question of ``when'' the power 
grid will face significant physical and cyber threats, the 
modernization of the national electricity system must be our 
priority.
    According to the Department of Energy (DOE), the U.S. 
electric grid must be updated within the next decade to address 
challenges including aging U.S. energy infrastructure, changes 
in demand, emerging threats and fundamental shifts in the U.S. 
energy supply portfolio as energy sources like renewables and 
nuclear increase.
    Again we can see these changes taking place in my home 
state, where today, nuclear generation is our most reliable 
source of energy, running at more than 93% of the time over the 
past three years - and where we lead the nation in wind energy.
    As next-generation energy technologies continue to come 
online, and as cybersecurity capabilities continue to evolve, 
we must take action to counter our grid vulnerabilities and 
provide necessary updates to this critical infrastructure.
    Thankfully, DOE funds broad research and development 
programs to support grid modernization and security 
technologies through Department-wide collaborations like the 
Grid Modernization Initiative (GMI), and the Grid Modernization 
Lab Consortium (GMLC).
    DOE also funds robust research in novel grid technologies 
and computational modeling efforts through its Office of 
Electricity (OE) and cybersecurity technology for energy 
delivery systems through its Office of Cybersecurity, Energy 
Security, and Emergency Response (CESER).
    We are grateful to have two witnesses representing these 
important efforts here this afternoon: the Honorable Karen 
Evans, Assistant Secretary of CESER, and Mr. Juan J. Torres, an 
Associate Laboratory Director at the National Renewable Energy 
Laboratory and Co-Chair of Grid Modernization Lab Consortium.
    Modernizing our grid will require these important programs, 
along with cooperation from many federal agencies, states, and 
industry. I hope our witnesses can share their expertise and 
provide valuable insight on how Congress can best support these 
collaborative efforts.
    I want to again thank the Chairman for holding this 
hearing, and I look forward to a productive discussion today.

    Chairman Lamb. It wouldn't be the first time that 
electricity was powered by a lot of hot air from Texas.
    Mr. Weber. Or the last.
    Chairman Lamb. Had to include that for the Ranking Member's 
granddaughter in the audience today. We welcome her. And I do 
think it is important to note the bipartisan nature of this 
discussion. As it often is on this Committee on these subjects, 
Mr. Weber and I both are big supporters of nuclear energy, and 
a sort of all-of-the-above-type strategy. It's one thing that 
doesn't always break through the headlines, but is a beacon of 
hope here in Washington some days.
    [The prepared statement of Chairwoman Johnson follows:]

    Good afternoon and thank you, Chairman Lamb, for holding 
this hearing on two important and related issues that our 
nation's energy infrastructure is now confronting: The 
resilience of our electric grid and its security from cyber and 
physical attacks.
    A few months ago, this committee held a hearing where we 
discussed the need for renewable energy research and 
development, specifically focusing on wind and solar energy. I 
am always excited to talk about how Texas leads the U.S. in 
installed wind energy capacity, with over 24 gigawatts of wind 
energy. However, significant work needs to be done to our 
electric grid to help utilize all this energy in the most 
efficient way we can, and in coordination with all of the other 
types of energy that are now being integrated into the grid.
    I am pleased that the President's budget request reflects 
significant increases in research and development activities 
for both the Office of Electricity, where the Department 
performs its grid modernization work, and the Office of 
Cybersecurity, Energy Security, and Emergency Response, which 
leads its grid cybersecurity work. I am disappointed, however, 
that the request also includes a 30% cut for research on 
resilient distribution systems within the Office of 
Electricity.
    This would ultimately take money away from research on low 
cost distribution sensors, and it would cut the development of 
smart devices that can help minimize the impacts of local 
disruptions to our energy systems. If we are to successfully 
transform our Nation's grid to support the technologies of the 
future, we need to be sufficiently funding R&D in these areas 
as well.
    The two drafts of legislation we will be discussing today 
would provide important guidance and support for these critical 
programs over the next several years. The Grid Modernization 
Research and Development Act of 2019 authorizes a broad 
research, development, and demonstration program on a wide 
variety of grid modernization topics, including advanced hybrid 
energy systems and a grid-scale energy storage initiative. The 
Grid Cybersecurity Research and Development Act of 2019 is an 
updated version of a bill that Mr. Bera and I introduced, along 
with many of my Science Committee colleagues, in the previous 
two Congresses. This bill would authorize a cross-agency 
research and development program to advance electric grid 
cybersecurity efforts.
    I am looking forward to hearing from the experts assembled 
here today on what we can do to improve the electric grid so 
that we are ready for the electricity needs of the future. This 
Committee is fortunate to be able to focus on supporting the 
development of a wide range of exciting, cutting-edge energy 
technologies. But the grid really is the backbone energy 
infrastructure of our Nation, and we should be doing everything 
we can to ensure that it is robust enough to utilize these new 
technologies in a safe and reliable way.
    With that, I yield back.

    Chairman Lamb. So at this time I would like to introduce 
our witnesses. The Honorable Karen Evans is Assistant Secretary 
of the Office of Cybersecurity, Energy Security, and Emergency 
Response, CESER, at the U.S. Department of Energy. Before 
leading CESER, Mrs. Evans was the national director of the U.S. 
Cyber Challenge, a public-private program designed to help 
address the skills gap in the cybersecurity field. She also 
worked for the George W. Bush Administration, where she was an 
IT official at the Office of Management and Budget, and served 
as the Department of Energy's Chief Information Officer.
    Mr. Juan Torres is the Associate Laboratory Director for 
Energy Systems Integration at NREL (National Renewable Energy 
Laboratory), and the Co-Chair of the Grid Modernization 
Laboratory Consortium, which is a partnership of 14 national 
labs to advance modernization of the U.S. power grid. Prior to 
joining NREL, Mr. Torres held a variety of positions over the 
course of a 27-year-long career at Sandia National Lab, where 
he worked on securing our energy infrastructure, among other 
topics.
    Ms. Kelly Speakes-Backman is the CEO of the Energy Storage 
Association (ESA). Kelly has spent over 20 years working in 
energy and environmental issues in the public, NGO, and private 
sectors, including United Technologies, Sun-Edison, and 
Alliance to Save Energy. She is a former Commissioner of the 
Maryland Public Service Commission, where she also served as 
Chair of the Board of Directors of the regional Greenhouse Gas 
Initiative, co-Vice Chair of the NARUC (National Association of 
Regulatory Utility Commissioners) Committee on Energy Resources 
and the Environment, and a member of the EPRI (Electric Power 
Research Institute) Energy Efficiency and Grid Modernization 
Public Advisory Group.
    And Ms. Katherine Hamilton is the Chair of 38 North 
Solutions, a public policy consultancy specializing in clean 
energy and innovation, and the Executive Director of the 
Advanced Energy Management Alliance. She previously ran the 
Gridwise Alliance, was policy director to the Energy Storage 
Association, and worked at the National Renewable Energy 
Laboratory. Katherine worked in buildings research and 
government relations. She also spent a decade at an investor-
owned utility designing electrical systems for commercial and 
residential developments.
    As our witnesses should know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included in the record. When you have completed your spoken 
testimony, we will begin with questions, and each Member will 
then have 5 minutes for questions. We will start with the 
testimony of Ms. Evans.

             TESTIMONY OF THE HONORABLE KAREN EVANS,

         ASSISTANT SECRETARY, OFFICE OF CYBERSECURITY,

            ENERGY SECURITY, AND EMERGENCY RESPONSE,

                   U.S. DEPARTMENT OF ENERGY

    Hon. Evans. Chairman Lamb, Ranking Member Weber, and 
Members of the Subcommittee, it is an honor and a privilege to 
serve at the Department of Energy as the Assistant Secretary 
for the Office of Cybersecurity, Energy Security, and Emergency 
Response. Thank you for the opportunity to testify on behalf of 
the Department. One of the most critical missions at DOE is 
developing the science and technology to successfully counter 
the ever-evolving increasing threat of cyber and other attacks 
on our networks, data, facilities, and infrastructure. DOE 
works closely with our Federal agencies, State, local, tribal, 
and territorial governments, industry, and our National 
Laboratory partners to accomplish this mission.
    Another critical mission for DOE is ensuring the resilience 
of our electric grid, and successfully countering the ever-
evolving increasing threat of physical and cyberattacks. DOE 
recently announced an $8 million investment in innovations that 
will enhance the reliability and the resiliency of our Nation's 
energy infrastructure. This R&D partnership opportunity will 
spur the development of the next generation of tools and 
technologies that will become widely adopted throughout the 
energy sector. As we protect our infrastructure from cyber 
threats, we are also working to improve and complete the 
resilience of our electricity systems.
    Our Office of Electricity also supports transmission system 
resilience and generation diversity and is exploring new 
architecture approaches for the electric grid. This includes 
the development of the North American Energy Resilience Model, 
which aims to provide unique and groundbreaking national-scale 
energy planning, and real-time situational awareness 
capabilities to enhance security and resilience. A large 
component of DOE's work is pursuing cutting-edge innovation in 
Big Data, artificial intelligence, and grid-scale energy 
storage based on new technology.
    Grid-scale storage will be an important enabler for 
renewable integration, and for clean-based load power. While 
today's technologies are already providing value to the grid, 
there are physical limitations to the traditional batteries and 
pumped hydro that will be surpassed by the next-generation 
technologies. Efforts in grid-scale energy storage are already 
producing important advancements. Grid-scale energy storage 
technologies have been demonstrated using new generation of 
advanced flow batteries that rely on lower cost electrolytes. 
We are also continuing to advance energy storage through our 
Advance Energy Storage Initiative, which includes the 
development of the new grid storage launch pad, aimed at 
accelerating materials development, testing, and independent 
evaluation of battery technologies for grid applications.
    The DOE National Laboratories support the development of 
technologies that strengthen and improve energy infrastructure 
so that consumers have access to reliable and secure sources of 
energy. Another program driving enabling technologies is DOE's 
Grid Modernization Initiative, GMI, which focuses on the 
integration of increasing amounts of variable generation into 
the grid through R&D investments at our national labs. One 
noteworthy GMI effort will accelerate the conversion of the 
National Wind Technology Center campus into an experimental 
micro-grid capable of testing grid integration at megawatt 
scale.
    These are just a few of the examples of how the United 
States is approaching its commitment to updating and improving 
its energy infrastructure and environmental responsibility 
within its own border, but these same issues are also at the 
heart of so many of our partnerships and work abroad. Reliant 
and resilient energy infrastructure is critical to the U.S. 
economy's competitiveness, innovation, and leadership. Our 
long-term approach will strengthen our national security and 
positively impact our economy. I appreciate the opportunity to 
appear before this Subcommittee, and I'm happy to answer 
questions at the appropriate time.
    [The prepared statement of Hon. Evans follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you. Mr. Torres?

                    TESTIMONY OF JUAN TORRES,

          CO-CHAIR, GRID MODERNIZATION LAB CONSORTIUM,

               AND ASSOCIATE LABORATORY DIRECTOR,

                  ENERGY SYSTEMS INTEGRATION,

              NATIONAL RENEWABLE ENERGY LABORATORY

    Mr. Torres. Thank you. Chairman Lamb, Ranking Member Weber, 
Members of the Subcommittee, thank you for this opportunity to 
discuss the critical challenge of grid modernization and 
cybersecurity, and the crucial research needed to create a 
flexible, more secure, and more resilient U.S. power system. 
I'm Juan Torres. I serve as the Associate Laboratory Director 
for Energy Systems Integration at the Department of Energy's 
National Renewable Energy Laboratory, or NREL, in Golden, 
Colorado. I've been affiliated with Federal research in our 
National Laboratory system for more than 29 years. In my 
current position, I direct NREL's efforts to strengthen the 
security, resilience, and sustainability of our Nation's 
electric grid. In addition, I'm Co-Chair of the DOE Grid 
Modernization Laboratory Consortium, or GMLC, and team lead for 
the GMLC security and resilience research.
    I commend the Committee for this timely discussion, given 
that every aspect of our economy, our national security, and 
critical infrastructure in the U.S. is deeply dependent on the 
reliable operation of our electrical system. I'm often asked, 
when will you be finished with modernizing the grid? The answer 
is that grid modernization is a journey. It's not a single 
destination. As long as we need electricity to remain 
economically competitive, to defend our Nation against evolving 
threats, and to maintain our way of life, we'll need to 
continually advance our electric infrastructure. Fundamentally, 
the research we're conducting must assure that our future grid 
has greater resilience to hazards of all types. Improved 
reliability for everyday operations, enhanced security from 
increasing and evolving threats, continued affordability to 
maintain our economic prosperity, superior flexibility to 
respond to the variability and uncertainty of conditions at 
different time scales, including a range of energy futures.
    We've come a long way in a few short years of investment 
through the DOE's Grid Modernization Initiative, but there 
remains much work to do. Research within the GMLC has the 
opportunity to strengthen the trajectory of our grid's 
development. This work will in turn inform the investment 
decisions we make today so we can increase the impact of the 
new technologies that will serve the grid for decades to come. 
The steps we take now can move us toward enabling the grid of 
the future to address pressing challenges, such as a changing 
mix of generation types, a need for cost-effective energy 
storage, extreme weather events, increasing cyber and physical 
threats, electrification of our transportation system, and 
growing use of digital and communication technologies.
    I'd like to highlight just a few examples of the important 
work that is ongoing around the National Labs system through 
DOE support. The National Labs' deep modeling capability is 
providing the basis for the DOE Office of Electricity's North 
American energy resilience model that will, in the future, help 
us understand the state of resilience for the power grid and 
natural gas infrastructure. With DOE's Solar Technologies 
Office, we are developing a road map that will guide 
cybersecurity to confront the unique needs of the growing solar 
energy sector, and other distributed energy systems. And as I 
speak with you, NREL, in partnership with the DOE Wind Energy 
Technologies Office and the International Electrotechnical 
Commission, today is hosting a cybersecurity workshop at the 
National Wind Technology Center at NREL's Flat Iron campus. 
This event is bringing key government and industry players 
together for the first time to address the cybersecurity needs 
of the growing wind power industry.
    Finally, I applaud the Subcommittee for the commitment and 
insight you have shown in holding this hearing, and with 
pending legislation that addresses the critical challenges of 
our future electric grid. The benefits of technical solutions 
cannot be fully realized without the appropriate business 
models, regulatory structure, and policies to support and 
enable them. Given the importance of these very issues to DOE, 
to the National Laboratories, and of course to Congress, I'd 
like to invite you to attend the National Lab Day on Capitol 
Hill next week, July 24, in the Rayburn House Office Building. 
The event will be focused exclusively on grid modernization and 
cybersecurity, and many grid researchers, other experts from 
the labs, as well as myself, will be on hand for a discussion 
and a series of exhibits that will highlight much of the work 
I'm discussing today. Thank you for the privilege to address 
this Committee, and I look forward to answering any questions 
you may have.
    [The prepared statement of Mr. Torres follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you. Ms. Speakes-Backman?

               TESTIMONY OF KELLY SPEAKES-BACKMAN,

                    CHIEF EXECUTIVE OFFICER,

                   ENERGY STORAGE ASSOCIATION

    Ms. Speakes-Backman. Chairman Lamb, Ranking Member Weber, 
and Members of the Subcommittee, on behalf of ESA, thank you 
for the invitation to speak today on the role that energy 
storage plays in modernizing and securing our electric power 
infrastructure. Energy storage technologies are transforming 
the way we generate, deliver, and use electricity because it 
essentially decouples the element of time from when we make it, 
move it, and sell it. That simple concept enables enormous 
amounts of capabilities for the grid: Supplying backup power, 
reducing peak system demands, relieving stressed 
infrastructure, firming variable generation sources, like solar 
and wind, and optimizing inflexible generation sources, like 
nuclear.
    Most people think of a battery when they hear energy 
storage, but there are a variety of technologies, not only 
different kinds of batteries, like flow batteries, but also 
mechanical storage technologies, like pumped hydro and 
flywheels, thermal storage technologies like ice storage and 
molten salt, and power-to-gas storage technologies like 
hydrogen and ammonia. Each has its own performance 
characteristics, and best suited applications, but all do the 
same job of storing energy for use when and where it's needed 
most. Storage is uniquely flexible among all resources. It's 
the only grid resource that operates as both supply and demand 
in a single asset. I've outlined a lot of reasons in my written 
testimony, of course, for our claim, quoting my fellow 
panelist, Katherine Hamilton, that storage is the bacon of the 
grid, just makes everything a little bit better.
    ESA applauds the Subcommittee for incorporating energy 
storage into its Grid Modernization Research and Development 
Act of 2019 to modernize and secure the electric grid. For the 
remainder of my testimony today, I'm going to outline the 
recommendations from my written testimony, which are intended 
to strengthen the effect of the proposed legislation. So in 
Section 3, Enhancing Grid Resilience and Emergency Response, 
the proposal to enhance grid resilience is really important, 
particularly in light of the terrible impact of the 
increasingly frequent and severe weather events limiting access 
to electricity. Grants for projects that increase the 
resilience of electric service with distributed energy 
resources will speed the ability of communities and local 
governments to prepare for the next disaster.
    It's also important for the Federal Government to use that 
information that it gathers in this effort to prove the 
economic case for resilience investment more broadly so that 
State commissions can measure cost effectiveness, and the 
private sector can step in when the proposed grant money is 
spent. To that end, ESA asks the Subcommittee to consider 
directing DOE to work with stakeholders to develop a method for 
quantifying the economic value of resilience.
    In Section 6, there are a number of commendable provisions 
within Section 6, Grid Scale Energy Storage, reflecting 
bipartisan ideas from H.R. 2909, the Promoting Grid Storage 
Act, and H.R. 2986, the Better Energy Storage Technology Act, 
or BEST Act. ESA endorses both these bills. The Promoting Grid 
Storage Act would create a competitive grant program at the 
Department of Energy for State and local governments, 
utilities, public power authorities, and rural co-ops seeking 
support for incorporating storage into long-term planning and 
grid operations. We respectfully request that the Subcommittee 
include the competitive grant program from Sections 4 and 6 of 
the Promoting Grid Storage Act to accelerate learning through 
experience, and share that investment responsibility. The BEST 
Act emphasizes DOE investments in demonstrations projects to 
provide flexibility on intra-day, inter-day, and seasonal 
basis. Those demonstrations are intended to establish cost and 
performance targets, which is critical to developing 
commercialization milestones, but also may pose a risk to 
innovation unintentionally limiting technology development 
pathways.
    Section 7, in Hybrid--in the Hybrid Energy Systems, we 
commend the Subcommittee for efforts to drive research and 
development on storage systems paired with generation. Hybrid 
systems with storage are relatively new, and we ask in this 
section that the Subcommittee direct FERC (Federal Energy 
Regulatory Commission) to seek a report on the current rules on 
interconnection, market participation, and capacity 
accreditation of hybrid energy systems.
    And finally, in Section 8, Grid Integration, in addition to 
the RD&D (research, development, and demonstration) programs 
for integrating the--an electrified transportation system. We 
recommend adding complimentary RD&D efforts on the re-use of ED 
batteries for second life applications in charging 
infrastructure and electric grid service. Re-use for grid 
applications could lower costs, and could divert still useful 
assets from recycling or disposal. And so, with that, I thank 
you for the opportunity to speak to these critical issues, and 
I welcome your questions.
    [The prepared statement of Ms. Speakes-Backman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you. And Ms. Hamilton?


                TESTIMONY OF KATHERINE HAMILTON,

                   CHAIR, 38 NORTH SOLUTIONS,

                    AND EXECUTIVE DIRECTOR,

              ADVANCED ENERGY MANAGEMENT ALLIANCE

    Ms. Hamilton. Good afternoon. My name is Katherine 
Hamilton. I'm the Chair of the firm 38 North Solutions, and 
Executive Director of Advanced Energy Management Alliance, a 
coalition of distributed energy resource providers and 
consumers. Thank you to Chairman Lamb, Ranking Member Weber, 
and the entire Subcommittee for inviting me to testify before 
you today.
    A lot has changed in the last 2 decades since I last 
appeared before this Committee. Renewable energy resources are 
now the cheapest source of electricity, and energy storage is 
able to cost-effectively replace old fossil fuel peaker plants. 
Innovation has been instrumental in allowing these resources to 
efficiently, effectively, and safely integrate into the 
electric grid. And while innovation continues in the private 
sector, Federal investment and leadership is crucial to solving 
many of our most complex puzzles around grid modernization. 
This Act would provide a great deal of that leadership.
    It is appropriate that the first part of the bill focuses 
on resilience. The need for resilience continues to grow, given 
increasing storms, wildfires, and other climate-related 
incidents. Reliability is the percentage of availability over 
time, while resilience is the ability to recover quickly from a 
specific situation. Distributed resources, such as micro-grids 
that can recover quickly from an outage incident, and provide 
continued service to local communities, will be important to 
increasing their resilience. In addition to metrics on outage 
duration, data should be collected on recovery time, costs of 
downtime, and customer impact. I suggest that a section on risk 
be developed, mapping out areas at greatest risk from both a 
physical, as well as an economic standpoint.
    Smart grid technology deployments have allowed the grid to 
operate more efficiently, and with greater visibility. The year 
of detective work necessary to determine that the Northeast 
Blackout of 2003 was caused by a branch in Cleveland would no 
longer be the case, thanks to these technologies. The focus on 
modeling is greatly needed. Modeling assumptions can determine 
long-term investment in generation resources that may or may 
not be necessary, and that are paid for through consumer rate 
increases. While planning models have improved, most are 
lacking in considering demand-side resources in the planning 
process, so customer sided resources, from demand response to 
solar, energy efficiency, combined heat and power, electric 
vehicles, all can contribute to the customer not just being a 
load on the system, but actually becoming part of the resource, 
allowing the supply and demand sides to become interchangeable.
    Technology demonstrations are key to proof of concept, 
lowering risk and gathering data for innovative solutions. A 
concept that's been used in other sectors, and to some degree 
in the utility sector, is a sandbox, where an area is set aside 
that is completely free of regulation, and where multiple 
systems, technologies, and approaches can be experimented with 
removed from penalty and risk to the utility. Additional 
experimentation can actually lead to more creative solutions.
    Advanced energy storage has grown tremendously, and seen 
exponentially reduced costs. New technologies have been 
nurtured and funded at the Department of Energy, including in 
ARPA-E (Advanced Research Projects Agency-Energy), and 
continued R&D should test new chemistries and use cases. But 
instead of identifying this research as grid scale, or 
prescribing time durations for storage technology operations, I 
recommend stating the problems that should be solved, or the 
services delivered, and allow new chemistries and technologies 
to be developed that fit those needs.
    Grid integration is key to understanding how all these 
systems can interact to multiply the benefits of these 
innovative technologies for the grid and consumers.
    In addition to protecting sensitive grid information and 
utility security, any standards for consumer or third-party 
access to consumer data should be reasonable, while ensuring 
privacy of information. I would caution against being overly 
prescriptive, and inadvertently stifling innovation, including 
the very innovation that could mitigate security risk. While 
these programs are not necessarily designed to reduce carbon 
emissions, tracking greenhouse gas impact is still useful as we 
transition to a cleaner energy future, and explore technologies 
whose greenhouse gas impacts are still relatively unknown.
    Finally, I would propose adding a new section to the bill, 
one focused more on social science. Given the speed of our 
energy transition, manufacturing and worker transition is 
lagging. The U.S. should not only be the leading source of 
entrepreneurship globally, but we should also lead the world in 
building and deploying new energy technologies. I suggest that 
research be conducted on how factories can be retooled, power 
plants repurposed with clean fuels, and workers trained to 
adjust to new technologies. The U.S. is the global leader on 
clean and smart energy technology innovation, but to continue 
on that trajectory, we must sustain our R&D programs in ways 
that can assist grid operators, utilities, entrepreneurs, our 
workforce, communities, and consumers.
    Thank you again to the Subcommittee for allowing me to 
testify, and for showing leadership in grid modernization 
research and development.
    [The prepared statement of Ms. Hamilton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. OK. At this point we will begin our first 
round of questions. I will recognize myself for 5 minutes.
    Ms. Hamilton, I'd actually like to start where you left 
off, which is on the need to make sure that we're thinking 
ahead on the impact of jobs that this transition will have. It 
will have it whether we like it or not, so, as far as I'm 
concerned, the question is what are we going to do about it? 
The whole theme of today's hearing is how are we going to 
protect? How are we going to protect the grid, make sure that 
people's power is protected, that their data is protected? But 
we also have to make sure that their jobs are protected. And I 
believe we can do that.
    There's going to be a lot of hands-on, physical work that 
needs to be done to adjust our infrastructure, to install new 
equipment. But I was just hoping you could say a little bit 
more about what that would look like as a research project. 
What are some ideas of the type of research we would have to 
authorize? Who would be doing it, what do we need to know, and 
when? If you could, is there anything more you can say on that, 
please.
    Ms. Hamilton. It's a great question, Mr. Chairman, and it's 
something I think about a lot, because since I was in the 
utility, the workforce has been aging. Now about 30 percent of 
the utility workforce consists of Millennials, about 40 percent 
of the engineers, and Millennials tend to change jobs faster 
than we used to in the utility workforce. You would start in 
the utility, and you would retire in the utility.
    But people change jobs a lot faster, and there are more 
types of jobs, so we need to find out what trainings are 
needed. I think it's important for a research project to look 
at what are all the skills that we need, and where do we need 
to source those, and who can do that? What are some of the 
skills that transfer really easily? For example, a coal worker 
that is an engineer, or a certified electrician, might transfer 
really well into energy storage or solar, where an electrician 
might be needed. So I think there is some of that to be done.
    Also in California right now, there are wildfires that are 
going to cause public safety outages of 30 days or more. I 
mean, substantial outages, and there are not enough trained 
tree trimmers to do the work needed on vegetation management. 
You can't send a kid out with a bushwhacker. This is really 
trained labor. So there are a lot of job needs and 
opportunities, and there are people who don't have jobs, and we 
need to somehow match those. So bringing the public sector and 
the private sector together on that seems to me to be a good 
way to think about that.
    Chairman Lamb. I think that's correct. Anybody else from 
the panel want to jump in on that topic? Are you familiar with 
researchers, or people doing this kind of work who might be 
able to add to that? OK, we will be sure to look at it on our 
own. Thank you for raising it.
    Ms. Evans, on a kind of similar theme, I noted at the 
beginning that I think we're short on the cybersecurity 
workforce, and the jobs that need to be done there. Can you 
talk a little bit about how our bill, or future efforts we 
might make, can help us incentivize people to not only go into 
the areas of cybersecurity, but really to serve the public the 
way that you have, and help us protect these assets?
    Hon. Evans. Thank you, Mr. Chairman. There's a lot of work 
that's already going on in this area that I know you are aware 
of, under the National Institute of Standards, with the 
Department of Homeland Security, and with the executive order 
that just recently was released. So under the categories of 
cyber, it's always going to increase. It's never going to go 
away. And also, as my esteemed colleague just described the 
utility workforce, you're going to have to constantly look at 
what skillset you're going to need. Right now we're very 
focused on what I would call the first responders, and those 
types of skills that you want to have, if you think about it 
that way, but you also have to build out who are the 
specialists that are having--if you think about it on a 1 to 
10, that is going to have to constantly be looked at as what is 
the right mix both for the government as well as for private 
industry.
    Chairman Lamb. Thank you very much. And I think with both, 
you know, and you know this from hosting the Cybersecurity 
Challenge, or promoting it, I think with both sets of 
challenges we need to be willing to look deep into our 
educational pipeline and realize that starting younger people 
on these projects, and gaining those skills at an earlier age 
is going to be essential for us to ever get ahead of this. It's 
a lot harder to retrain someone at an older age--given them 
confidence that they need to make that transition then if we 
have people interested in it from the beginning.
    So, with that, I will recognize Mr. Weber for 5 minutes.
    Mr. Weber. Thank you, sir. Assistant Secretary Evans, one 
of the things that makes Texas unique is our islanded grid, 
ERCOT, that I referred to, it's the Electric Reliability 
Council of Texas, I know you're aware of that. And it's my 
understanding that this allows Texas to respond more quickly to 
cyber and physical--cyberattacks, physical threats, physical 
events, since they actually operate under one set of 
regulations, State of Texas, and, of course, they're 
accountable not to FERC, but to the agency in Texas. In your 
opinion, are Texas utilities more or less vulnerable because 
they have that kind of operating system?
    Hon. Evans. I don't know that I want to actually say 
they're more or less vulnerable. I think that the way that 
Texas has approached this problem is that they're aware. And, 
as was mentioned in some of my colleagues' testimonies, where 
we were talking about shifting more toward risk, that they have 
the ability to constantly evaluate the risk, regardless of 
whether it's a physical risk, a cyber risk, or a weather risk. 
And so it depends on how the mix works, but because of the way 
they are organized, they can always constantly evaluate the 
risk.
    Mr. Weber. Right. And you're aware that they're accountable 
to the PUC of Texas, Public Utilities Commission, as opposed to 
FERC, and so the State as a whole gets to kind of have control 
of that grid, one out of nine or eight in the country, and 
there's kind of a little undetermined area there. So I think it 
helps them work actually quicker and faster.
    And I do want to come back to you too. In your prepared 
testimony, you said that existing CESER projects and artificial 
intelligence, AI, and quantum technology also. So how is CESER 
using AI to strengthen the electric grid against cyber threats? 
And I want to give a Part B to that question. The Chairman 
talked about training people, and we talked about young people 
going into these different jobs, and changing jobs more often. 
Is CESER and the Department findings that they can find young 
people, retain young people, and train people in AI, and 
hopefully quantum computing?
    Hon. Evans. So I'll take the second part of that question 
first. We have an education piece associated with what is 
happening in CESER. We have a competition, which is the 
CyberForce Competition, that reaches out to all the 
universities. Several of the labs participate. So that's our 
outreach, and we are attempting to also work with the labs, as 
well as us, to then hire directly from the winners. We have a 
challenge, just like the rest of the government, just like the 
sector as a whole in this area, so we are working on creative 
ways through our authorities to be able to do that.
    On the other part of the question, as to how we are using 
artificial intelligence and quantum computing, we have several 
research and development efforts that are underway, but it is 
really to try to get it machine-to-machine so that we're 
elevating the skill level. So things that the machines can do 
based on how we know attack vectors will happen is built into 
the technology and into the solutions, and then have those 
learning capabilities go across our data storage as it relates. 
So that's the artificial intelligence piece, so that then we 
can then feed into the intelligence sector.
    In visiting the labs, I can tell you that the folks there 
that are studying under the labs are very interested in how 
we're going about doing this, so I'm hoping that I can hire 
them or they hire them.
    Mr. Weber. OK. Well, I appreciate that. Mr. Torres, I want 
to follow up with you on that. What are you experiencing in 
that same vein of thought?
    Mr. Torres. OK. With regards to both questions I'll start 
with the artificial intelligence, and some of the advanced 
technology concepts. So what we're seeing is the grid is 
evolving to the point that humans just won't be able to respond 
quickly enough to all the information that's going to be 
available to them, so they're going to have to be aided through 
some sort of computing/artificial intelligence types of 
technologies. So we are looking into concepts like autonomous 
systems, where we can incorporate some of the intelligence 
there to make decisions to maintain reliability, but also we 
need to do this in a way where we incorporate security from the 
very beginning, where we assume these systems are going to be 
targeted. So we are doing research in that particular space.
    With regards to the talent pipeline, on the research side, 
what we are seeing is the pipeline is just not going to be 
strong enough here long term. We're not seeing enough people 
continuing into graduate research, their graduate studies, so 
we see a shortfall in folks with backgrounds in computer 
science, computer engineering, in electrical engineering, in 
the power grid. I think I heard earlier from Ms. Hamilton the 
fact that, you know, most of the workforce in the utility 
sector, they used to work their entire careers. They don't do 
that anymore. How can we retain folks in those areas, but also 
how can we retain the researchers so that we, as a country, can 
maintain leadership in these technologies that are going to 
shape the future grid?
    Mr. Weber. All right. I appreciate it. I'm over my time. 
Thank you, Mr. Chairman.
    Chairman Lamb. Recognize Mr. Lipinski for 5 minutes.
    Mr. Lipinski. Thank you, Mr. Chairman. Thank you for 
holding this hearing. Thank our witnesses for their testimony. 
I wanted to follow up on one of the things that we were just 
talking about here, is artificial intelligence. I have 
introduced the Growing Artificial Intelligence Through 
Research, or GrAITR, Act, which would provide necessary 
resources to advance the science of AI and multiple 
applications, and I know Mr. Torres was just speaking about 
this, Secretary Evans was just speaking about this. I wanted to 
ask Mr. Torres, what are some of the research directions that 
need to be addressed to pursue an autonomous grid, and do you 
think that the Department of Energy has the resources necessary 
to pursue the research right now?
    Mr. Torres. I don't think I've done a full assessment to be 
able to answer the--that full question, but I can tell you 
about some of the things where I think the Department of Energy 
can have some impact. There's some foundational aspects to 
artificial intelligence application to the grid that we really 
need to develop further.
    We have some work going on right now where we're applying 
AI concepts to the grid, as I mentioned, focused around four--
building out four foundational areas that we think are really 
important. One is complex systems, and understanding complex 
systems theory, and the second is Big Data analytics. The third 
is non-linear control. So what we're seeing is with highly 
distributed systems, some of the linear control concepts that 
are used now on the grid may not apply in a highly 
decentralized type of system. And then the fourth area is 
optimization. How do you really get all of these really 
complex, highly distributed, where intelligence may be 
distributed, to work together to achieve some sort of common 
goal, so that it works as a cohesive system. So there's 
opportunity to continue to advance some of the foundations to 
be able to apply AI for the grid specifically.
    Mr. Lipinski. Secretary Evans, do you have anything you 
wanted to add there?
    Hon. Evans. Well, what I would like to offer you, sir, is 
that the Secretary is very committed to AI, and Undersecretary 
Dabbar I know has really been working on this, so I would like 
to take it back and get back to you specifically----
    Mr. Lipinski. OK.
    Hon. Evans [continuing]. About what our AI functions are 
doing. I know what we're doing in our areas that relates to 
cyber, but the Department is vast, as you know, so I'd be----
    Mr. Lipinski. I understand.
    Hon. Evans [continuing]. Happy to get it back to you.
    Mr. Lipinski. I appreciate that. Well, in addition to AI, 
everyone, I think, on this Committee, hopefully, knows by now 
that my interest in always promoting social science research, 
and the importance of social science research, which sometimes 
gets short shrift and--with the great importance that it has to 
fit in with a lot of our other research, so very happy that Ms. 
Hamilton raised that. Is there anything else that you wanted to 
add about what we need to do in integrating social science 
research into this area that we're talking about?
    Ms. Hamilton. Thank you for the comment. One thing I would 
just note is that, because I come from the--I come from working 
with entrepreneurial companies, and innovation has become much 
more democratized, so innovators are not limited to our labs, 
our universities, or our utilities. They are everywhere. 
They're kids in basements playing with their apps, right? So 
trying to make sure that our research programs are able to 
connect the dots so that we can bring entrepreneurs to test, 
and make sure that we have proof of concept, because no utility 
is going to purchase a piece of equipment that was designed in 
somebody's basement. They need to know that Department of 
Energy and the National Labs have given it the seal of 
approval, and have shown credibility, by testing it, and making 
sure that this all works.
    So I feel like, you know, while part of that is about 
bringing new people into the industry, because there are so 
many new excited young people coming in, we also need to make 
sure that we then connect them to the programs that are 
existing, to enrich the programs too.
    Mr. Lipinski. All right. Thank you. Appreciate that. For 
sake of time, I don't have much, I will yield back.
    Chairman Lamb. Recognize Mr. Cloud.
    Mr. Cloud. Thank you, Chairman. Thank you all for being 
here. Assistant Secretary Evans, I wanted to touch on EMPs 
(electromagnetic pulse). The commission to assess the threat 
from electromagnetic pulse attacks warned that a high-altitude 
EMP would be, they quote, ``an existential threat to the 
survival of the United States and its allies''. That sounds 
pretty ominous. In your written testimony, you mentioned that 
CESER's working to address EMP risk by sharing knowledge with 
industry, and developing mitigation strategies. Could you 
explain to us a little bit of what you're doing to communicate 
with stakeholders, how the progress is going, what our 
readiness is at this point?
    Hon. Evans. Thank you for the opportunity to talk about 
that. The Administration did pass and send out an executive 
order dealing specifically with EMPs, and so we're leveraging 
the research that's already there. There's a group that we work 
with within the National Labs called CSMART, so I'm going to 
give you the acronym: Center for EMP/GMD Simulation Modeling 
Analysis Research and Testing. And it involves several of our 
labs. This--because of that research that was previously done. 
And so Sandia is at the center, and then we have Savannah 
River. Livermore is involved, Los Alamos, and Oak Ridge. And 
then we work with EPRI on this.
    And a lot of this is how do we model it, how do we do the 
validations of some of the things that were in that study so 
that we can actually work with industry through our ESCC 
(Electricity Subsector Coordinating Council) work and our oil 
and natural gas subsector coordinating group and share that 
research back out with them? There's a debate of whether you 
need to harden it all the way up to military standards or 
whether you can take a phased approach and what the impact of 
that is based on the wavelengths. And so that research is 
ongoing, the test beds are being developed. So to the point 
about being able to validate the technology, and validate the 
research, that's what we're doing. We intend to accelerate 
that, provided what happens in our Fiscal Year 2020 budget. And 
so I know the House passed it, so you guys included the ability 
for us to do that research, so we're looking forward to 
continuing that work.
    Mr. Cloud. Are you working or communicating with, like 
local entities, local governments, power providers, or is it 
more still in the research vein?
    Hon. Evans. The information that we have to date, and how 
we work with EPRI, and then how we work with State and local 
governments, and then through our industry partnerships, and 
then with the councils, we do convey that out. We also work 
with the National Governors Association. We work through the 
associations as well, so the information and the research to 
date is shared. And then they also know what our project plan 
is going forward, and then who we are working with in the 
National Labs as well.
    Mr. Cloud. Are you getting any feedback on what challenges 
are on the ground, or----
    Hon. Evans. The hardest part is, like, to what level--and I 
would like Mr. Torres to jump in here, if he feels so 
inclined----
    Mr. Cloud. Yes.
    Hon. Evans [continuing]. Is how the investment is going to 
go forward, and how you would harden the different pieces of 
this. And we have some things that are going on with some of 
the bigger utilities, and they are sharing that information so 
that those decisions can be made. And we also work with FERC on 
this as well, and then FERC also then reaches out and shares 
the information too, because this becomes an investment 
decision, and then it'll inform the standards decisions going 
forward with FERC.
    Mr. Cloud. OK. Any of you want to speak to that as well?
    Mr. Torres. So I totally agree with everything Assistant 
Secretary Evans said there. There is an element of the energy 
that's released during an EMP that's very similar to a GMD, 
geo-magnetic disturbance, event, so that's something that we 
need to take into account as well, that actually is probably 
more likely than an EMP event. It's maybe higher probability, 
but also some severe consequence.
    I think it does need a little bit more study. EMP has been 
studied for quite some time by the commission that's formed, 
and re-formed, and so on. But I believe the--I would suggest 
that we take maybe a forward-looking spin as we think about 
EMP. I think a lot of times we're looking at how do we harden 
the grid of today against EMP. The grid we have in 10 years 
will not look a lot like today. It will change. There are a lot 
of things going on right now and--where it's become more 
distributed, the generation mix, and so on. So we need to do 
some analysis, and project how would we harden the grid of the 
future?
    Mr. Cloud. Thank you.
    Chairman Lamb. Recognize Ms. Horn for 5 minutes.
    Ms. Horn. Thank you, Mr. Chairman, and thank you to our 
witnesses and Mr. Ranking Member for holding this important 
hearing today. As I'm sure, with many of us across this 
country, but also on this Committee--I also sit on the House 
Armed Services Committee--and especially given, Mr. Torres, 
what you mentioned about the blackout, and where we're talking 
about this, we are very concerned about our electrical grid and 
our infrastructure as a national security issue on a broader 
level, as well as looking forward as an infrastructure issue.
    So I'd like to start, Secretary Evans, with you today, if 
we could. So we know we have significant work to do, but I'm 
glad that you're doing this work. You mentioned in your 
testimony talking about the national imperative, and the 
Cybersecurity Research Development Act, cybersecurity being one 
of the major threats. I'm curious to hear how you would assess 
the current state of our grid cybersecurity efforts, and what 
additional things those of us on the Committee can do to help 
bolster those efforts?
    Hon. Evans. I want to echo some of the comments that my 
esteemed colleague just mentioned about looking for the grid of 
the future. So there is a robust mechanism that we have as a 
sector specific agency going forward, but also with the whole 
government approach that we take with our partners, like 
Department of Homeland Security, Transportation, depending on 
what we're looking at. But when we talk about the cyber threat, 
and how it continues to evolve, what we really need to do is 
look at where we're going to be in the future and how is that 
mix going to be.
    And then, based on the risk modeling, which has already 
been talked about, I'd like to bring up again the North 
American Resiliency Model that takes into consideration, along 
with what DHS is doing from the National Risk Management 
Center, the ability for us to be able to take the work that's 
coming from the National Labs, model it, and be able to give 
you a databased-type-of decision, data informed, based on where 
we are. How can we project this out into the future? What is 
the mix going to look like? How is the weather on that? So when 
we talk about that in the research that we're doing, again, I 
applaud what the Committee is doing to be very forward leaning 
into what do you think, and how research should be 10 to 15 
years from now on that grid of the future.
    Ms. Horn. Thank you. And continuing on the resiliency 
model, I want to turn attention to Ms. Speakes-Backman, 
especially when we talk about storage and generation. I 
represent Oklahoma, which is well known, of course, as an oil 
and gas State, but we also have a robust collection of 
renewable energy that is growing. In fact, 39 percent of the 
energy we produce is through renewables, but we know that the 
challenge is storage.
    So, looking at the technologies as they're evolving, beyond 
batteries, and where we are for the resiliency factor, I know, 
speaking with our utilities providers, one of the challenges, 
as we diversify our energy sources, is ready access beyond just 
the cyber issues and the other security issues. So can you 
speak to where we are on developing some of these other 
technologies to make them accessible beyond batteries?
    Ms. Speakes-Backman. Thank you for the question. So 
Oklahoma specifically does not have battery storage necessarily 
installed, but there's about 259 megawatts of pumped storage in 
the State, so we congratulate you on that. In terms of other 
technologies, of course, pumped storage is a very mature 
technology. It's installed--it dwarfs the amount of capacity 
that's actually installed in the United States currently, when 
you think about pumped hydro storage as well.
    Other mechanical storage technologies, like flywheels, are 
being used in shorter-run, high-power applications. There's 
compressed air, and liquid storage--liquid air storage, and 
other mechanical systems that are in some demonstration levels 
right now. There are thermal storage technologies. Even when 
you think about building being--buildings being a thermal 
storage opportunity, but--water heaters in your home, there are 
a number of State programs that encourage water heaters and 
demand response that help--that is also a level of storage. And 
those, of course, technically are very advanced, just not used 
as much in the grid applications as well as they could be.
    There's other--also molten salt storage technologies, and 
other grid-side technologies that are promising, but are yet to 
commercialize, but the progress has been made on those as well.
    Ms. Horn. Thank you very much. Mr. Chairman, I yield back.
    Chairman Lamb. Mr. Biggs for 5 minutes.
    Mr. Biggs. Thank you, Chairman Lamb, and Ranking Member 
Weber, for holding this important hearing. Thanks to all of you 
panelists for being here with us today. The U.S. relies on a 
robust cybersecurity front to keep our critical infrastructure, 
including delivery systems, safe, and I'm pleased that the 
President and his Administration have made cybersecurity a 
priority. President Trump's national cybersecurity calls for 
the development of a superior cybersecurity workforce. This 
strategy states that, ``a highly skilled cybersecurity 
workforce is a strategic national security advantage,'' and I 
agree with this assessment.
    Nearly 2 years ago, I had the opportunity to moderate a 
panel at an Arizona State University (ASU) cybersecurity 
conference, and we focused on education and workforce in this 
area. The panel included cybersecurity professionals 
representing ASU, PayPal, McAfee, Network Command at Fort 
Huachuca, and the National Institute of Standards and 
Technology. And the main issue was raised on how some of you 
have addressed this, on the cybersecurity workforce shortage 
that this country's facing.
    The Center for Strategic and International Studies reported 
that the U.S. was facing a shortfall of almost 314,000 
cybersecurity professionals as of January 1 of this year. And I 
think it's important that we work to encourage a free market, 
non-intrusive solution to develop a cyber workforce capable of 
managing not just the threats of today, but anticipate the 
threats of tomorrow, particularly in the energy industry. So 
I'm going to start with a question that I want to give each of 
you a shot at answering, and then I do have a couple more 
questions, so if you can help me out by being as concise, yet 
as informative, as possible. How do you think government can 
become a better partner with higher education institutions and 
industry to form an education pipeline that will actually meet 
our cybersecurity workforce needs to keep our electric grid 
safe? So I guess we'll start with Ms. Hamilton on this side, 
and then go my right to left, your left to----
    Ms. Hamilton. OK.
    Mr. Biggs [continuing]. Your right.
    Ms. Hamilton. I'll be really quick, because I'm not a cyber 
expert, but just on education, I think you need to start much 
younger than that. We need to have it in our--in all of our 
elementary schools too to try to get people--kids interested in 
doing this too. So I think having public-private partnerships 
are important, making sure that you bring in--so maybe you'll 
bring in some teachers who are science teachers bringing in--
whether it's from a university or middle school to try to----
    Mr. Biggs. And not to interrupt, but are you talking about 
specifically STEM (science, technology, engineering, and 
mathematics), or computer----
    Ms. Hamilton. Well, STEM----
    Mr. Biggs [continuing]. Coding----
    Ms. Hamilton [continuing]. And also just--if you're 
interested in specific----
    Mr. Biggs. OK.
    Ms. Hamilton [continuing]. Cyber, get kids interested in 
that too, really.
    Mr. Biggs. Great. Thank you.
    Ms. Speakes-Backman. I'm also not a cybersecurity expert, 
but I'm really thrilled that my 15-year-old twin girls are here 
in the audience hearing this, because their high school has a 
program that is partnered with the U.S. Naval Academy 
specifically on cybersecurity, and I really want them to take 
it, so----
    Mr. Biggs. OK. Are these your daughters, you say?
    Ms. Speakes-Backman. Yes.
    Mr. Biggs. Please raise your hands so we can put pressure 
on you publicly.
    Mr. Weber. No pressure.
    Mr. Biggs. Thank you. We're helping out. Mr. Torres?
    Mr. Torres. So I would concur with my colleagues here. It's 
important to really spark that interest in STEM fields early. 
The other thing is I think we need to provide mentoring, 
because it's not just getting the workforce out there, it's 
getting the future teachers, and getting the future professors. 
And this is back to a point I made earlier, which is the fact 
that we need to continue to get people to advance their 
education, and it's--and be the mentors, and mentor the future 
teachers, as well as the future applications.
    Mr. Biggs. Thank you, and, I'm sorry, I'm going to skip 
you, and maybe we can have a one on one dialog later, because I 
have to ask this other question, which intrigues me, because 
Mr. Torres has repeatedly talked about what several of you have 
talked about the future grid, or what the grid looks like in 
the future, and it's really tough to be clairvoyant, obviously, 
but I am wondering what your thoughts are on the role that 
microgrids might play in making the grid more resilient. And 
what does the microgrid of the future--what might that look 
like? And, Mr. Torres, since you've talked about future grids, 
we'll start with you.
    Mr. Torres. So, just to make sure everybody's on the same 
page, a microgrid, basically--the way--a simple way to define 
it, there are formal definitions, is essentially a grid that 
has its own generation, its own wires to move the electrons, 
and its own loads to use those electrons. It connect--can 
connect and disconnect from the larger utility grid. So I 
believe they do have their role. They don't need to be used 
everywhere.
    I foresee that the future grid will be some sort of a 
hybrid of a centralized grid base, with some decentralized 
microgrids, especially for critical loads. We've seen that 
they've been very applicable where you have military 
installations, highly critical loads like hospitals, some key 
industrial areas, and so on, that may have a lower reliability 
connection to the utility grid, and where you may have some 
very sensitive types of load, sensitive to perturbations and 
disturbances in the grid. So you really need to right fit it 
and right size it. It's not a ubiquitous solution.
    Mr. Biggs. OK. Unfortunately, my time's expired. Thank you.
    Chairman Lamb. Thank you. Mr. McNerney.
    Mr. McNerney. Well, I thank the Chairman for holding the 
hearing, and I thank the panelists. Really a very interesting 
area, and very important. But I want to start with a shout out 
to the Grid Innovation Caucus that I co-Chair with my colleague 
Bob Latta from Ohio. The purpose is to discuss policy and 
technology, but also to help educate Members of Congress, and 
to get people excited about this issue here in Congress, 
because it's important, and we need to move forward on these 
things.
    Assistant Secretary Evans, we've heard a lot about 
artificial intelligence and how important its benefits are, 
including in the context of grid modernization and security. 
What role do you think AI can play in improving the resilience 
of our Nation's electric system?
    Hon. Evans. I think it has a critical role. Mr. Torres 
already highlighted some of the specific things of what we're 
talking about going forward, and really looking at software-
defined networks, autonomous solutions, really analyzing the 
data, taking the things that we know are going to happen, and 
try to remove some of what is happening at a human level now 
that could be done by artificial intelligence, by machine 
learning. And that is the area that we are really exploring so 
that we can then look at higher analysis of security. And then 
also the resilience, of being able to model the resilience in 
real time.
    Mr. McNerney. Well, is there a significant risk that 
adversaries could use AI to attack our system?
    Hon. Evans. For every great new innovation that we do, and 
I believe Mr. Torres also highlighted this, is that we also 
then have to evaluate what are the potential risks associated 
with that, and then engineer preventative solutions for 
problems that we know of could happen as we deploy those out. 
So that's the longer answer to yes, we could do that, but we 
don't want to stifle innovation. We want to take advantage of 
those things and be able to use them, but also then make sure 
we have the right mitigations in place.
    Mr. McNerney. Well, I mean, those sorts of attacks are 
going to happen whether we deploy AI or not, so----
    Hon. Evans. So we--yes.
    Mr. McNerney. Mr. Torres, do you want to comment on that?
    Mr. Torres. I would concur with Assistant Secretary Evans. 
I guess I would add to it the fact that, you know, just about 
any tool, any weapon, can be used for good or for bad, and so 
this is why it's very--it's an imperative for us to maintain 
that leadership in the advancements of these technologies, so 
we are the ones that are using these for the right purpose, and 
can actually deter any negative use, or any attacks on these 
systems.
    Mr. McNerney. Well, Mr. Torres, I'm concerned about the 
attack on March 5 on the SCADA system. There wasn't much damage 
done, but what would be the potential damage if attackers had 
access to the system, real access?
    Mr. Torres. And the attack that you refer to was, I 
believe, a denial-of-service attack on the SCADA system of a 
utility out west. And my understanding is that it basically 
blinded, or the operators lost--may have lost control or 
visibility from some of the devices, so the attack was on the 
SCADA system, which--supervisory control and data acquisition 
system--is used to monitor and control elements of the power 
grid. So if somebody were to gain access, they could 
potentially disrupt operation of the grid, and maybe even cause 
the operator to make a mistake in operation.
    Mr. McNerney. Well, with all behind-the-meter devices and 
distributive resources, we're facing increasing risk here, 
right?
    Mr. Torres. There's a potential to increase the attack 
surface as we add more devices near the end user. So this is 
where we do--I believe through the CEDS (Cybersecurity for 
Energy Delivery Systems) program at DOE, under Assistant 
Secretary Evans, we do have a road map to essentially secure 
the connectivity down to the meter, essentially, so that we try 
to minimize the risk back upstream to the utility.
    Mr. McNerney. Thank you. Ms. Speakes-Backman, what site-
specific geographic considerations are important to consider 
when deciding what type of energy storage system is the most 
appropriate for a particular location?
    Ms. Speakes-Backman. Well, certainly--thank you for the 
question. Certainly there are geographic considerations when it 
comes to pump storage, hydro storage especially. Underground--
you need large expanses of underground. But when you're talking 
about battery storage specifically, that can be scaled to 
behind peoples' meters in the home, it can be--at grid scale, 
it can be in commercial industrial applications. The biggest 
considerations that are necessarily--that are not necessarily 
having to do with the technology itself, in terms of its 
capabilities, but the application that you're going to be using 
it for.
    So when you need to be in rural communities, when co-ops 
are needing to use energy storage to offset the cost of 
transmission upgrades and distribution upgrades, then you'll 
want to use a specific type of battery, or other technology, 
that can be longer duration. When you're talking about being up 
in the northeast, you need a longer duration storage type 
application for weeks--hours, weeks, even months, when it comes 
to wintertime issues.
    Mr. McNerney. And the cost goes up pretty dramatically 
after a couple hours of----
    Ms. Speakes-Backman. Yes, it can.
    Mr. McNerney [continuing]. Usage of a storage system? I 
yield back. Thank you.
    Chairman Lamb. Mr. Casten for 5 minutes.
    Mr. Casten. Thank you, Chairman Lamb. Thank you so much to 
our witnesses for being here. As we consider how to get to a 
low, or hopefully zero, carbon future, we are increasingly 
constrained by how to have a flexible enough grid that can 
accommodate these intermittent sources of power that fluctuate 
out of phase with where the load is. It is a really important, 
really critical issue, and I am delighted to see this Committee 
thinking seriously about those issues. We have a lot of ways we 
have to solve that. We can solve that through market mechanisms 
and transmission, but I believe that chief among those has to 
be grid scale energy storage. And that's why I was proud to 
introduce H.R. 2909, the Promoting Grid Storage Act of 2019 
(PGSA). And I want to thank Ms. Speakes-Backman, and the folks 
at ESA, for their support of H.R. 2909.
    One of the most important aspects of that bill is the 
creation of a competitive grant program for energy storage at 
the DOE, funded at $150 million over 5 years. The competitive 
program is unique in that it would empower local entities to 
identify specific demonstration projects and compete for funds 
at DOE, instead of waiting for the DOE to identify specific 
projects to fund. Ms. Speakes-Backman, are you aware of any 
competitive grant programs for energy storage specifically at 
DOE, or, for that matter, anywhere else across the Federal 
Government, that currently operate like the program put forth 
in Section 6 of the PGSA?
    Ms. Speakes-Backman. Not specifically of that type, and 
that's why we've been so strong in our support of the Promoting 
Grid Storage Act, because not only does it allow the market to 
participate in the selection of these types of projects, but it 
also puts skin in the game. So the market participants are also 
participating, and putting their own business risk at this, so 
we think it's going to accelerate the demonstration project 
success.
    Mr. Casten. Well, you've thankfully answered my second 
question as well, of why that structure was helpful, so I 
appreciate that. In your opinion, does the Grid Modernization 
Research and Development Act of 2019, in its current form, do 
enough to empower local stakeholders to bring demonstration 
projects forward that best overcome these informational 
barriers and lower the risks?
    Ms. Speakes-Backman. It goes pretty far, and we're really 
excited about this potential, but there are a number of things, 
as outlined in my testimony, that can be done to further this. 
One of them I think is very important is--you had the 
conversation about resilience, and it is to support the--for 
DOE to support the investigation into how States can prove out 
cost effectiveness for resilience. This is an issue that I 
personally had after the Derecho in 2011, where States can--
States--sorry, utilities can invest in reliability, and there 
are metrics for that, but they cannot invest in resilience, 
because there aren't the correct metrics to--of that to prove 
cost effectiveness. I think that's an important part of it. The 
other part is, really, Section 4 and Section 6 of the Promoting 
Grid Storage Act, I think, could be included in this particular 
draft legislation, to be so helpful.
    Mr. Casten. Well, thank you. And again, I'm really excited 
by the Committee's work on the Grid Modernization Act of 2019, 
but I am concerned that the--in its current form, it doesn't do 
enough to facilitate demonstration of energy storage 
technologies. And don't get me wrong, R&D and technical 
assistance are really important, but without efforts to further 
de-risk those technologies, I'm concerned that the rate at 
which they're adopted by utilities, by co-ops, municipalities, 
will be too slow for the scale needed to combat the climate 
crisis. I, you know, I live in Illinois, and you can see in the 
data--we started to see an increase in CO<INF>2</INF> emissions 
because we are deploying so much intermittent energy----
    Ms. Speakes-Backman. Um-hum.
    Mr. Casten [continuing]. And now we're installing--because 
it's so hard to site transmission, we're installing really 
inefficient, but quick-ramping, gas generation. And we can 
solve that with storage, but we've got to get it out there.
    Ms. Speakes-Backman. Yes. I--just to add a comment, I 
completely agree with you, in the fact that energy storage is 
really going--the only--the major delay in having this deployed 
on a major scale is really about how it fits within the 
regulatory construct, and how it fits within the energy grid 
integration itself. It's really more of a commercial question 
that's happening more than a technology question. I think the 
technology's ready to go.
    Mr. Casten. Well, thank you very much. I'm about out of my 
time, but I really appreciate your testimony, and I hope I can 
persuade the Chairman to work with me to help strengthen the 
bill as it pertains to the demonstration of energy storage 
technologies. And I yield back.
    Chairman Lamb. Thank you. Mr. Foster.
    Mr. Foster. Thank you. Actually, my colleague just 
mentioned the difficulty of citing, you know, power lines, and 
the two components of that. Well, there's a big NIMBY (not in 
my back yard) difficulty that's much worse as you approach 
cities, but bad probably everywhere. The obvious solution to 
that's to bury power lines, and that is hellishly expensive 
presently. How extensively have people looked into just robotic 
assembly, you know, of underground power lines? Is there really 
any hope to make a big dent in the cost? Are there 
technological approaches that might really lower the cost of 
buried power lines, or has that pretty well been mined out 
already? Anyone familiar with any big initiatives that have 
ever been tried along those lines?
    Ms. Hamilton. I think you're still going to have the issue 
of NIMBY-ism. You'll still have the issue of having to get 
either eminent domain or permission, and permitting from folks 
as you put them in, so you'd want to look for other kind of 
rights of ways, whatever the technology----
    Mr. Foster. Right, but for buried power lines it's orders 
of magnitude easier if you don't have to look at them. You 
know, those that believe cancer is caused by electric power 
lines, you know, if you can't see the line, that seems to 
bother them less, and so on. So it's a, you know, so that, you 
know, it strikes me that that might actually, you know, if 
there is money to be squeezed out of the cost of buried power 
lines, that might be a good Federal R&D and demonstration 
initiative.
    The other one is something that would be a legal mechanism. 
You know, there's a well-documented drop in the real estate 
prices near high voltage power lines, you know, for partly 
rational and partly irrational reasons. It's a documented fact. 
So the question is whether some sort of assessment on those 
nearby, you know, for example, if there's an existing right of 
way, and now it comes time to actually build the power line, 
you know, there's typically a big outcry, even though it's an 
established, documented right of way that people said, I didn't 
realize this when I bought my house, and now they're going to 
look at, you know, the rational part of that, as their real 
estate values are going to drop if the power line's actually 
put in. And then, of course, there's an irrational thing, they 
don't--or maybe it's rational or not, that they don't like 
looking at the power line.
    So if there was a legal framework that allowed those who 
are affected, in terms of real estate value and impact, to 
contribute to burying the power line, then there may be, you 
know, I'm not sure exactly what that would look like, whether 
we're going to build this power line, it's going to be 
expensive, but part of the real estate appreciation that you 
will see, if you take an existing power line, say, and bury it, 
that will cause everyone's real estate value to rise, and 
capturing a part of that rise to pay for burying it, that there 
may be a social contract that's a win all the way around, 
particularly as the power lines approach cities.
    Anyway, but you're unaware of things like this? Because 
hardening the grid by, you know, putting things like a DC 
overlay are, you know, very good ideas in principle, and you 
have to get past the difficulty in citing power. So there may 
be some opportunities for probably Federal law to enable that 
sort of a deal to be struck with the surrounding communities. 
Anyway, I'd just make a couple of comments on the BEST Act, 
another piece of legislation that I've introduced as well, 
having to do with--just encouraging energy storage R&D and 
demonstration projects, and I guess that's probably been pretty 
well discussed, I presume, and my apologies for having to jump 
back and forth between this and the Facebook Libra hearings. 
But is there anything that has not yet been settled on those 
lines that might be worth mentioning?
    Ms. Speakes-Backman. Well, I'd just like to add that ESA, 
and a number of other associations, have strongly endorsed the 
BEST Act as an excellent opportunity.
    Mr. Foster. Yes. And we have partners in the Senate. I 
think there's a good chance that it's actually the, you know, 
one of those rare combinations of things that is going to have 
a chance at getting through the legislative graveyard that 
we're trying to populate as best we can in the House these 
days, but that may be an exception to that.
    Ms. Speakes-Backman. We have hopes for a number of energy 
storage pieces of legislation, including the BEST Act, and 
including the--sorry, the storage--standalone storage ITC, and 
a number of other pieces that----
    Mr. Foster. Yes.
    Ms. Speakes-Backman [continuing]. We think could get 
through.
    Mr. Foster. Let's see, the last thing, in my last 3 
seconds, when you look at advanced nuclear technologies, some 
of them have the ability to essentially add storage to, you 
know, for example, molten salt reactors have the ability to put 
a molten salt tank nearby, if that's used as the coolant, so 
that you could effectively have the ability to--if you have 
excess generation capacity, this traditional knock against 
nuclear is that it's only worth running at a flat level. You 
could actually spike it up if you had a big storage tank, and 
excess generation capacity. And is that being factored into the 
modeling, and the cost incentives, when people look at advanced 
nuclear, that some techniques have this, and others don't? 
Again, there's, you know, been a lot of discussion in the 
Department of Energy about trying to incentivize techniques 
that had storage capacity of some kind.
    Ms. Speakes-Backman. Well, I can't speak to what's being 
counted in and--not for the nuclear side, but I can say for 
energy storage, and the various technologies, that this is one 
of the things that we're asking from DOE, and DOE has been 
actually doing some work on, is the evaluation of the various 
applications for energy storage, that it flattens out, and 
indeed increases the efficiency of the grid overall.
    Mr. Foster. Yes. All right. Well, I guess I'm well over 
time now, so I'll yield back the--my negative balance of time.
    Chairman Lamb. Thank you. Before we bring the hearing to a 
close, I want to thank our witnesses again for appearing before 
us today, and sharing such great information. The record will 
remain open for 2 weeks for additional statements from the 
Members, and for any additional questions that the Committee 
may have for the witnesses. The witnesses are now excused, and 
the hearing is adjourned. Thank you.
    [Whereupon, at 3:24 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
